                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: AIOOIOoo1                                                                     Page 1 of 1



                NSF OIG received an allegation of de minimis plagiarism within 3 NSF proposals I
         submitted by the same PI? We sent the Subject a letter reminding him of his responsibility to
         adequately cite all material in his NSF proposals.

                   This case is closed and no further action will be taken.




NSF OIG Form 2 (11/02)
